<html>
<title> - THE OPPORTUNITY TO SOAR: 15 YEARS OF SCHOOL CHOICE IN D.C.</title>
<body><pre>[Senate Hearing 116-27]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 116-27

       THE OPPORTUNITY TO SOAR: 15 YEARS OF SCHOOL CHOICE IN D.C.

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.govinfo.gov
                    
                                                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-769 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="483827082b3d3b3c202d2438662b272566">[email&#160;protected]</a>    
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
    Courtney J. Allen, Deputy Chief Counsel for Governmental Affairs
               Daniel J. Spino, Professional Staff Member
               David M. Weinberg, Minority Staff Director
Ashley E. Poling, Minority Director of Governmental Affairs and Senior 
                                Counsel
          Jackson G. Voss, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
Prepared statements:
    Senator Johnson..............................................    25
    Senator Lankford.............................................    27

                               WITNESSES
                       Tuesday, February 26, 2019

Hon. Tim Scott, A United States Senator from the State of South 
  Carolina.......................................................     2
K. Marguerite Conley, Former Executive Director, Consortium of 
  Catholic Academies, D.C. Opportunity Scholarship Program.......    12
Yisehak Abraham, Alumnus, D.C. Opportunity Scholarship Program...    14
Gerald Smith, Principal, St. Thomas More Catholic School.........    15

                     Alphabetical List of Witnesses

Abraham, Yisehak:
    Testimony....................................................    14
    Prepared statement...........................................    31
Conley, K. Marguerite:
    Testimony....................................................    12
    Prepared statement...........................................    29
Scott, Hon. Tim:
    Testimony....................................................     2
    Prepared statement...........................................    28
Smith, Gerald:
    Testimony....................................................    15
    Prepared statement...........................................    33

 
       THE OPPORTUNITY TO SOAR: 15 YEARS OF SCHOOL CHOICE IN D.C.

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:30 p.m., at St. 
Thomas More Catholic School, 4265 4th Street S.E., Washington, 
DC, Hon. Ron Johnson presiding.
    Present: Senator Johnson.
    Ms. Gonzales. Good afternoon, everyone. Welcome. My name is 
Rosio Gonzales. I am the President of the Consortium of 
Catholic Academies, and I want to extend a very warm welcome to 
Senator Ron Johnson, who is up here, and Senator Tim Scott. I 
also want to give a warm welcome to our parents, our students, 
our guests, and our entire St. Thomas More community.
    The Consortium is educating over 840 children this year 
across our four schools, and our families represent the 
communities where our schools reside in. Our students flourish 
academically and are accepted to some of the most competitive 
schools in the district.
    The reauthorization of the Scholarships for Opportunity and 
Results (SOAR) Act makes it possible for our students to dream 
and to succeed in high school and beyond, so we are just really 
grateful to be here tonight to bring importance to this 
reauthorization act.
    I also just want to thank our principal, Gerald Smith, our 
pastor, Father Moore. I am sure they are here. I also thank the 
Senators and the leadership that has helped make this event 
possible, and just a warm welcome to all of you as well. Thank 
you.
    [Applause.]

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order. I want 
to thank Mrs. Gonzales for her opening remarks. I also want to 
express my gratitude to the staff and the principal of St. 
Thomas More Catholic Academy, Father Moore.
    That is very appropriate. Not a coincidence, probably.
    But I mainly want to thank the audience for attending.
    I also, as a little special shout-out to Catholic 
education. I am Missouri Synod Lutheran, and I ask that my 
opening comment be entered into the record.\1\ I will not bore 
you with reading that. But just my own personal experience in 
Catholic education, we sent out all of our children through the 
Catholic school system in Oshkosh, Wisconsin. And my second-
oldest daughter, for kind of social reasons, decided to leave 
the Catholic school system, I think in 10th or 11th grade, to 
go to Oshkosh North Public School.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 25.
---------------------------------------------------------------------------
    And the assistant president at the time was a wonderful man 
who really brought total quality management to education 
through Fox Valley Technical College, and was really serving 
with gratis, I mean not being paid as the president of the 
Catholic school system in Oshkosh, making sure it could 
survive.
    And so he called me in, as part of that total quality 
management system, as a father whose daughter left the system, 
just an exit interview. What happened? And one thing led to the 
next. He asked me to be on the President's Advisory Council. I 
am an accountant by training. I started looking at the numbers. 
I started understanding, really, the challenge of keeping a 
private-sector alternative open, a Catholic school system, one 
that teaches the value of acknowledgement of a Creator, of 
morals and of values. I was all in, and did everything I 
possibly could.
    The reason I mention that is in that time period I came to 
understand how crucial a private-sector system is to education, 
having that choice available to students and their parents. I 
came to understand how important it was that families were 
involved in education. I came to understand the service and 
sacrifice of every administrator, every principal, every 
priest, every parent, every teacher involved in that system.
    Let us face it. Those of you who are working in the 
Catholic school system, or in many private systems, you are 
doing it as an act of service. You are not getting paid what 
you can be paid in the private sector. You are doing it because 
you truly believe in the mission of these schools.
    So again, I want to thank all of you for attending, but I 
really want to thank all of you that are involved in this 
system, throughout D.C., really throughout America, for your 
active service and sacrifice in making sure that our young 
people have this opportunity of being educated in a system that 
understands that there is a Creator, that there is a higher 
calling, a higher purpose in life, and how that is so important 
in terms of shaping young people's lives and preparing them for 
the future.
    So again, with that, I want to really thank my Senate 
colleague, Senator Tim Scott, who has been just an unwavering 
supporter of school choice and for these systems, and with that 
I will ask you to testify.

   TESTIMONY OF THE HONORABLE TIM SCOTT,\1\ A UNITED STATES 
            SENATOR FROM THE STATE OF SOUTH CAROLINA

    Senator Scott. Thank you, and thank you, Mr. Chairman. 
Certainly thank you and to your Ranking Member Peters who is 
absent today. Thank you both for your leadership on such an 
important topic and thank you for your commitment to the 
country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Scott appears in the Appendix 
on page 28.
---------------------------------------------------------------------------
    Let me say first, to the St. Thomas More Academy students, 
being blessed with a healthy, positive, powerful quality 
education is critical in the life that we are going to live. 
The fact of the matter is if you think about the difference 
between those who have and those who have not, so often one of 
the pillars is family formation. I came from a single-parent 
household and I will tell you, sometimes it is very difficult 
to overcome some challenges that you face growing up.
    But one of the things that helps you get there is a quality 
education, which is the second pillar of what helps our country 
and our students succeed at the highest level possible. I have 
sat in some of your seats before and I will say, without any 
question, that the future is incredibly bright.
    And as I had a chance to look through the success of the 
D.C. Opportunity Scholarship Program (OSP), there is no doubt 
that if you look at just simply 2016, when 98 percent of the 
students enrolled at a D.C. Opportunity Scholarship Program 
graduated, and 86 percent of those students went on to a 2-year 
or a 4-year educational opportunity. Those numbers are 
significant, especially when you think about the fact that so 
many kids in the area graduate outside of the program around 50 
percent of the time, which is just measurable progress in 
exceptional time.
    So I am excited about the lives that you will lead. I am 
excited about your leadership. I have a tremendous faith and 
confidence that the best is yet to come for our country, 
because you all are enrolled in a program that will make sure 
that you are equipped for the challenges that you face, both 
spiritual challenges as well as physical, financial, emotional, 
and educational challenges.
    When I think about the D.C. Opportunity Scholarship Program 
and the impact that it has had here, I think about the fact 
that there are so many parents who already have school choice. 
It is called a good income. If you have a good income you have 
the privilege of school choice. You can choose the neighborhood 
you want to live in, or you can choose the private school to 
send your kids to.
    The folks who do not have school choice, the folks who are 
not empowered by school choice are those folks like my mother, 
who worked for a little bit above minimum wage as a nurse's 
aide, who simply did not have the choice, the resources, the 
flexibility, the margin for her children to participate in 
quality education.
    And so from my perspective, as a sitting United States 
Senator, if I have an opportunity to fight for our young folks 
who are trapped in situations where the school options are 
limited, I want to be the guy at the front of that parade. I 
want to be the person championing those kids who have high 
potential but too often are overlooked because they simply do 
not have the resources to get there.
    And that is one reason why I am so thankful that the 
parents of the kids who go to this school are blessed with that 
option. The students at this school are blessed with high-
quality education. I think to myself that if we could have the 
D.C. Opportunity Scholarship model all across the country, can 
you imagine what an amazing day it would be, that every single 
ZIP code in America would have quality choice in education? 
That would be fantastic.
    You see, I am convinced that Americans, and especially our 
students, we do not lack talent. We do not lack potential. We 
too often lack access to the right choices. And we have heard 
it 100 times, or maybe we have heard it 1,000 times, that when 
the parents have a choice, the kids have a chance. I am 
completely convinced that the best and brightest days are ahead 
of us.
    The mission to educate kids in a high-quality school is 
neither a Republican or Democrat issue. I am thankful that a 
Democrat from California, Senator Feinstein, is the lead 
sponsor on the Opportunity Scholarship Program, and has been 
for most of the last 15 years. This is an issue that we do not 
paint on the right or to the left. We paint this as a truly 
American issue, and I am thankful for her leadership. I am glad 
that last month she reintroduced legislation to move it 
forward, and I am thankful that you have a Chairman of the 
Homeland Security and Governmental Affairs Committee (HSGAC), 
who champions this cause and who understands and appreciates 
the importance of having quality education in every single ZIP 
code, which will make America stronger and more competitive in 
a global market, that without it we will not be able to 
compete.
    And so my hope is that we can move this bipartisan 
legislation to the finish line to ensure families can continue 
to benefit from the Opportunity Scholarship Program for years 
to come.
    Thank you, Mr. Chairman.
    Chairman Johnson. Well, thanks, Senator Scott. Do you have 
a couple of minutes just to kind of have a little bit of a 
dialogue here?
    Senator Scott. Certainly.
    Chairman Johnson. Because I think it is extremely important 
that you point out the fact that we have bipartisan support.
    Senator Scott. Yes.
    Chairman Johnson. And there has always been opposition to 
school choice. I personally do not understand it. Obviously, in 
Milwaukee, Wisconsin, we had Polly Williams and some real 
champions of this, and we have a very robust school choice 
program for people that do not have the means----
    Senator Scott. Absolutely.
    Chairman Johnson [continuing]. To give their students, and 
parents the freedom to choose what is appropriate for them.
    But Senator Feinstein has been a champion. Senator Cory 
Booker, I believe, is going----
    Senator Scott. Very much so.
    Chairman Johnson. So I have watched ``Waiting for 
Superman.'' By the way, if you have not watched that, in the 
audience, or anybody possibly looking at this on video, watch 
the documentary, ``Waiting for Superman.'' It is actually hard 
to watch, but you start understanding how important this is to 
families and students, in terms of how they view their ability 
to have a good future.
    Because you have been involved in this issue for quite some 
time. Can you explain the opposition to it, because I really 
have a hard time understanding it.
    Senator Scott. I cannot adequately explain the opposition 
to school choice. I can only say that at times it appears to me 
that the opposition is either based on ignorance, which is just 
not being educated on the actual facts on the ground, or the 
focus is not on the students and their achievement. Any time 
you have a system that is designed not for students but as an 
educational system you probably should take a step back and 
take a second look to figure out where the focus actually is.
    I will say that when you look at the D.C. Opportunity 
Scholarship, specifically what you find is that three out of 
four parents are really excited about the success of the 
program. So, differently, the people who are most concerned 
about the education of the child is the parent, and the parent 
has the highest level of satisfaction in the education 
apparatus in this area. Those students whose parents have the 
highest satisfaction rates are in the D.C. Opportunity 
Scholarship Program.
    When you compare the outcomes of the students when they 
leave high school, one of the things that you realize very 
quickly is it is hard to oppose knowing that just 2 years ago, 
or last year, 98 percent of the kids graduated from Opportunity 
Scholarship programs, where only 50 to 58 percent--I forgot the 
specific number; it was in the 50s--graduated from those 
schools not enrolled in a D.C. Opportunity Scholarship Program, 
which baffles the mind why anyone would be in opposition to 
improving the graduation rates, improving those folks who go on 
to college, improving what their incomes are like.
    So for me, as a kid who was raised in poverty, and one who, 
unlike Ron John, I am not sure you guys understand this but Ron 
John, or Chairman Johnson, graduated cum laude. I graduated 
``thank you'' laude. [Laughter.]
    I just got out. You know what I am saying? Not everybody 
can be Ron Johnson. I made him possible. I was at the bottom 
half of the class. And frankly, as a kid who went to four 
different elementary schools, by the fourth grade--because when 
you are poor you move around a lot--for those folks to look 
into my mom's eyes and say that she does not deserve the same 
options that a wealthier person has, it is just downright 
wrong. I cannot understand the opposition.
    Chairman Johnson. That is the theme of ``Waiting for 
Superman,'' where you have these families waiting to get the 
Golden Ticket, waiting to win that lottery, because those that 
won felt that their children had a future.
    Senator Scott. Absolutely.
    Chairman Johnson. Those that lost were devastated because 
they thought, ``My child does not have a future.'' So again, I 
do not understand the opposition.
    The cost of educating a child in D.C., the operational 
cost, not with Catholics, is about $19,000 per student.
    Senator Scott. Yes.
    Chairman Johnson. There are about 1,645 students that will 
take advantage of the Opportunity Scholarship Program. Again, 
those are 1,645 people the district does not have to educate. 
They are saving more than $30 million, and they are getting $20 
million in return as part of the SOAR, because it is $60 
million divided by 3.
    Senator Scott. Yes.
    Chairman Johnson. So this program makes all kinds of sense, 
but the main reason is so that there is not one parent that has 
to go to their child and say, we cannot send you to a school 
who, first of all, values parental input. I mean, it is just so 
key. I mean, I know it is true in Oshkosh Catholic school 
system so I am sure it here with St. Thomas More Academy as 
well. Parents are welcomed. They are encouraged to participate 
in their child's education, which is so important for the 
outcome, and I am sure that was the case with you growing up as 
well.
    Senator Scott. Absolutely. The numbers that I find to be 
the most important numbers that are stunning is that when a 
child becomes disengaged along the way from an educational 
perspective, as I flunked out of high school as a freshman and 
had to go to summer school and catch up with my class and then 
graduate on time, and thank God for a small football 
scholarship that probably got me in as much as my SAT scores, 
and was able to go on and then finish on time in college as 
well.
    For the kid who gets disillusioned like so many of my 
friends, who drop out because they just were not having a 
quality experience, their income as a high school dropout is 
around $19,000.
    So if you graduate from high school, though, your income 
goes from $19,000 to $29,000, a 50 percent increase. If you go 
on to graduate from college it goes to $58,000. If you get an 
advanced degree you get closer to a six-figure income.
    So the fact of the matter, the numbers that matter to me 
most is not what we save as a government. It does not matter to 
me. If we are spending the money properly for education we 
cannot spend enough to do it right, and frankly, you can 
actually, according to the D.C. Opportunity Scholarship Model, 
you can spend less money and get a better return for the 
students so that their incomes grow, and if their incomes grow 
revenues to the government grows, revenues to community grows, 
revenue to the church--if you believe in Malachi 3:10, that 
grows as well.
    Everything is better off if you focus on the number for the 
kids who graduate versus the ones who do not and the ones who 
go on to get a 4-year education, versus the ones who do not, 
versus the ones who go on to get a graduate degree versus the 
ones who do not. So the most powerful numbers that will equip 
these young students for the better future are the numbers that 
are most important.
    And the last number I will tell you--and it is where I am 
from, in South Carolina, Charleston County--60 percent of 
African American males do not graduate from high school. So 
just take that number and play it out over a lifetime. What 
does that mean from educational achievement, income 
achievement, family formation, poverty rates, governmental 
assistance?
    We can solve so many problems if we remember that education 
is about a student. It is not about a teacher first. It is 
about a student first. We want to have the best teachers, the 
best administration, but all those other parts are only to make 
sure that the primary responsibility and objective of making 
sure that the student is best prepared and best served.
    Everything else does not matter until we realize that the 
focus is the student, and then we hire the best teachers, and 
we get the best administrators, and we get the best program. 
But the focus, the MVP of the league, is someone who shows up 
for class and does well, because the system is built for that 
child.
    Chairman Johnson. You can see the passion that Senator 
Scott has for this issue, which is why he is such a fabulous 
advocate.
    Now my staff will be kicking me in the knees, and probably 
yours too. I do not know what your time schedule is. If you 
have time I would love to have, if anybody has any questions 
for Senator Scott before he does have to leave. Do you have 
time?
    Senator Scott. I will take a question or two if you have 
them. But if I do not like your questions I just will not 
answer them, so it is great. [Laughter.]
    Just joking, kind of.
    Chairman Johnson. We do not want to put too much pressure 
on you.
    Senator Scott. Any questions for me of the students over 
here?
    Chairman Johnson. Right over here.
    Does she want to go to the microphone?
    Senator Scott. I will repeat the question.
    Chairman Johnson. OK.
    Mr. Addison. How you doing?
    Chairman Johnson. Just tell us your name and then give us 
your question.
    Mr. Allen. Hi, Senators.
    Senator Scott. Hi, sir.
    Mr. Allen. My name is Rob Allen.
    Senator Scott. Rob?
    Mr. Allen. Rob Allen. My question is, what would it take to 
spread this program throughout the United States, and what 
would be like the ramifications if it did pass in both the 
Senate and the House?
    Senator Scott. Yes, sir. Thankfully we are at a Catholic 
school so we all believe in prayer. That is probably a good 
place to start prayer, Rob.
    The second thing I would tell you is that we would have to 
have an honest conversation about building educational systems 
for students, and for no other purpose but for students. If we 
could have that conversation and if we were able to measure the 
student performance in schools, in programs like the OSP, or 
Milwaukee where Chairman Johnson is from, the State of 
Wisconsin, in many ways they burst the school choice programs.
    If we were able to see that come to fruition it would take 
a serious conversation and debate around how we are going to 
educate the next leaders of this country. If we did that, I 
think we would have more support, but it is hard to have that 
conversation in a polarized world called politics. That is why 
it is so important for parents to engage in the conversation, 
for students to engage in the conversation, because frankly, if 
you have the right skill set and you have the tools brought to 
you, I believe that you will do far better than I ever dreamed 
of doing in my life, because the world is getting better, not 
worse, if you see it right. The world is getting worse, not 
better, if you do not.
    I think we have to have that debate. It is one of the 
reasons why I am engaged in the school choice conversation. I 
do not care if the definition of school choice or high-quality 
schools is a public school, a private school, a home school, a 
virtual school. It does not matter to me at all. What I want 
are educated kids, because you deserve the chance to prove your 
mettle. You deserve the chance to prove to me and to the world 
that you can compete. And that is what we are seeing, whether 
at a Success Academy in New York, which are public charter 
schools, or the Aviation High School in Michigan, or school 
systems throughout this country that are focusing on the 
development of a child to be the most successful leader they 
can be.
    Chairman Johnson. Anyone else? Right here.
    Senator Scott. Yes, ma'am.
    Ms. Washington. OK. Hi. My name is Rita Washington. I am 
from Archbishop Carroll High School. I have two questions. My 
first question to you was why you think that people would 
somewhat like disagree with this, even though you were saying 
that it is beneficial to all of us, like the government and the 
kids, and yet we all have a good benefit from this. So why do 
you think people would disagree with this, or have a reason to 
disagree?
    Senator Scott. And your second question?
    Ms. Washington. Oh, and my second question is, so you were 
saying that it would help kids when it comes to like college 
and things like that, but how would you encourage kids that 
start to see college as just another thing, it is nothing 
special. Because a lot of kids like do not have as much 
interest in college because they see it as like, oh, it is just 
something I am going to do so I can have a better job. So how 
would you encourage students to continue through and actually 
do good at school so they can have the same benefits?
    Senator Scott. That is a great question, Ms. Washington. 
Let me start with your second question and then I will go back 
to your first question.
    The second question, how do we convince kids to go into 
college, is an important aspect, an important part of the 
journey. I will say two things, and I mean it as I will say it, 
though it may not sound like I am answering your question 
directly.
    I think continuing your education is imperative to be a 
healthy citizen. So I call it being a life-long learner. I do 
not think that college is for every student, however. I think 
every student should have the choice, because the quality of 
education that they receive from kindergarten to 12th grade is 
such a powerful tool so that they choose whether or not they 
want to go to a 4-year college, a 2-year college, or to an 
apprenticeship program.
    As an example, in my home State of South Carolina, we have 
folks who are a part of apprenticeship programs and they 
decided to take the route into industry, but they were able to 
go through a 12-week program to become a welder, and they ended 
up with an income of around $80,000 at 19 or 20 years old. 
Because there are some professions--there is dignity in all 
work. So some professions have a backlog of work. So you can 
start making a lot of money very quickly without having to go 
to college. So that is one point. So you do not have to go to 
college to be successful as a person.
    For the vast majority of the jobs of our future you are 
going to have to be a life-long learner, and one of the 
questions we are asking ourselves, what is the return on 
college education? Well, the average person, after 4 years in 
college, graduates with a debt of around $30,000, because if 
you grow up in a family like me, my parents cannot help me at 
all. My mother could not help me at all so I had a small 
football scholarship that did not pay for everything else. I 
had student loans that paid for everything else. I should have 
just played better football, but I did the best I could with 
the skills I had. It just was not good enough, right?
    So the kids like me that graduate from college today have a 
$29,000 or $30,000 debt, but that $30,000 debt is what causes 
them to earn more than a million more dollars over their 
lifetime. If you give me $30,000 and 4 years of your life, I 
give $1 million back. That is a pretty good exchange, from my 
perspective.
    So what we have to understand is that the lifetime income 
of someone who finishes 4 years of college is infinitely more 
than the person who does not. So that is one real good reason 
to go.
    The second reason is that you are probably more familiar 
with this. How old are you?
    Ms. Washington. Seventeen.
    Senator Scott. OK. So you are 17 years old. Are you a 
junior or senior in high school?
    Ms. Washington. Senior.
    Senator Scott. Good. OK. So have you ever heard--and 
sometimes I talk real fast, so if I need to slow down so you 
can understand my next comment you let me know, OK?
    Have you ever heard of an iPhone? [Laughter.]
    You have? OK. How about the Internet? How about the 
possibility of vehicles that drive themselves, autonomous 
vehicles? How about vehicles and/or medical equipment that will 
diagnose the problems within the system that someone will have 
to come along and just fix the system, basically through 
technology?
    The vast majority of the disruption that is coming toward 
our economy in the decade or two will be the automation. So the 
technology economy, or the gig economy, is going to cause a 
disruption for folks who are working in high-tech manufacturing 
jobs, which my State has a lot of those jobs.
    So if you want to be in the know for the next wave of 
opportunities, technology is at the forefront. The place that 
you get the best shot at a technical education, built around 
technology--I am sorry, I speak with my hands. I apologize--is 
at college.
    So my nephew, who is--I call him the heir to the Scott 
throne--it is a very small throne but he gets it all since I do 
not have any kids, and I helped raise him since he was 8 years 
old so I take a lot of credit for his success even though I did 
not do anything for it other than just pay for it.
    He went to Georgia Tech, which is a good college for 
engineering. And he majored in biomedical engineering, 
graduated and went to work for a Big 8 firm, real good job. He 
got bored and went back to Duke to get his master's in 
engineering and management. Tried, well, that one did not work. 
I do not think he really wants to work, actually. He just wants 
to stay in school.
    So now he is in medical school at Emory. He is a third 
year, just finishing up, and he is going to be a doctor who 
helps patients who have probably traumatic brain injuries and 
other issues. It is where he wants to focus his time. Well, his 
return on investment, though I was able to help some part of 
his education, he will have probably under six figures for his 
loans and he will make probably a lot of money, which means to 
me more than I am making, which is not hard to do. But he will 
make $200,000, $300,000, $400,000, or $500,000.
    But his primary objective is to change lives of people who 
are severely injured. His dad is a military guy and worked in 
medicine. So he is going to have the equipment here to help 
change lives out there. So while the income is better for him, 
what really drives him is his mission. His mission is to change 
lives through the use of technology and medicine, bring them 
together.
    So since he knows what his mission is he is able to 
accomplish that mission through education. So that, to me, is 
why college is critically important for most students, because 
of the disruption that is coming in our economy.
    To your first question, Ms. Washington, why people 
disagree, if I were to be objective and not cynical I would say 
that some people believe that by having a conversation about 
school choice we are talking about depriving other students in 
other places from public education. Nothing could be further 
from the truth.
    The truth is this country spends about $700 billion on an 
education system that has been dropping, versus our competition 
worldwide, and we spend as much money per capita or per student 
as most any other education system, yet our results are getting 
worse and worse and worse. If I was in a competition, and I am 
seeing $700 billion for something that is becoming mediocre, I 
would want to take a looking and say will competition make it 
better? I think the answer is yes.
    I am a product of a public school. I want to protect as 
many public schools as possible, as long as they are taking 
care of the kids, and if they are not, I want someone else to 
introduce a program that takes care of those kids.
    Chairman Johnson. Well, Senator Scott, you have been very 
generous with your time.
    Senator Scott. Was there one parent that had a question for 
me back there?
    Ms. Thompson. Good afternoon, Senator Scott.
    Senator Scott. Hey, ma'am.
    Ms. Thompson. I just want to say thank you. I am a product 
of OSP. I have been with OSP for the last 12 years. I have two 
sons that are going to prominent high schools, Gonzaga College 
High School. He is graduating this year.
    Senator Scott. That is excellent.
    [Applause.]
    Ms. Thompson. I live in Ward 8, and unfortunately we would 
not have had that opportunity that came from here. There were 
educators here. And they would not have that opportunity if it 
was not for OSP.
    Senator Scott. Amen.
    Ms. Thompson. So I have two more kids here in which OSP is 
very important to me. So as a parent, what do we do to ensure 
and make sure that nothing jeopardizes this program?
    Senator Scott. Thank you, ma'am, a, for your energy, and 
you are a far better advocate than I could ever be because you 
are living the dream. You are watching your kids grow up. I 
always tell people I am living my momma's American dream. She 
sacrificed so I could be here and you have done the same thing 
so that your kids can achieve beyond many of your friends' 
wildest imaginations probably. At least I know that was true 
with my momma.
    I would just say that to the extent that you can take the 
margin in your schedule, no matter if you are 12 hours or 8 
hours, and make sure that you galvanize other parents who are 
part of the success story of OSP, you will be doing every 
student in the room a great service, by pledging a part of your 
time to make a difference in the ears of policymakers, in 
Congress and in D.C.
    I will frankly tell you that it was refreshing to hear the 
number of elected officials in D.C. who were supportive of D.C. 
Opportunity Scholarships. So there are folks you can rally 
around, and then there are other folks that you can probably 
help educate on the importance of it. And you are the shining 
example that we need to see more of, less of us old dudes and 
more of you young ladies coming out there and being our 
champions. I have never referred to myself as old, and I will 
never do it again, so I apologize.
    Chairman Johnson. You can refer to me as old. I am an old 
dude.
    Senator Scott. So seriously, getting a group of moms like-
minded like you are, and talking about the story of your kids 
and what they are doing with their lives, and how they are 
changing the community, and what it means for this Nation long-
term, it is the most powerful, untold story in America. So 
please do it.
    Ms. Thompson. Thank you.
    [Applause.]
    Chairman Johnson. Thanks, Senator Scott. We appreciate your 
passion and your advocacy. In our hearts you will always be 
magna cum laude, OK?
    Senator Scott. Thank you, sir.
    Chairman Johnson. Why do not our next witnesses come on up. 
And as they are coming up, just let me tell you, we will give 
the audience an opportunity to ask questions and make comments. 
I mean, we want to hear from you. We appreciate the three 
questions we got. They are excellent. We need this dialogue. 
And like Senator Scott was saying, the most important thing you 
can do is advocate. Make sure that your elected officials 
realize how important this is to you and your family. Your 
voices are going to be incredibly powerful, which is why we are 
having this hearing here at this school.
    I will tell my staff, I am not swearing witnesses in 
because I do not think that we need to here. It does not have 
to be that formal.
    I really want to welcome to our stage here three 
extraordinary individuals who have really worked tirelessly for 
the success of this program. And we will just do it in order 
here and I will introduce people right before they speak.
    So we will start with Marguerite Conley. Ms. Conley is the 
Chair of the Board of Directors for Georgetown Visitation 
Preparatory School and has three decades of experience in 
Catholic education as a teacher and administrator. Ms. Conley 
served for 8 years as the Executive Director of the Consortium 
of Catholic Academies, providing management and operational 
oversight for four inner-city elementary schools in the 
Archdiocese of Washington.
    Prior to leading the Consortium, Ms. Conley was the 
principal at Enunciation School in Washington, D.C. for 11 
years. In 2006, Ms. Conley received the Washington Post 
Distinguished Educational Leadership Award. Ms. Conley received 
both a master's degree in education administration and a 
bachelor's degree in English from the Catholic University of 
America.
    Ms. Conley, please.

 TESTIMONY OF MARGUERITE CONLEY,\1\ FORMER EXECUTIVE DIRECTOR, 
                CONSORTIUM OF CATHOLIC ACADEMIES

    Ms. Conley. Thank you. Thank you and good afternoon. 
Senator Johnson, thank you for your leadership and support on 
this issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Conley appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    Every parent and guardian wants his or her child to have a 
bright and successful future, often one better than he or she 
had. For many parents and guardians in DC this means higher-
quality educational opportunities outside of their neighborhood 
schools that allow for exposure to values, cultural 
experiences, and activities enriching the overall education of 
their children. This is evident in the competitive lottery for 
choice public and charter schools in DC.
    For 15 years, the D.C. Opportunity Scholarship Program has 
assisted parents and guardians in accessing an additional 
educational option for their children. Since its inception in 
2004, the program has awarded 10,701 scholarships to students 
in grades K through 12 from low-income families to access 
private and parochial schools of their choice. The average 
annual income of families is below $24,000 and 50 percent 
receive Supplemental Nutrition Assistance Program (SNAP). 
Ninety-five percent of the students are African American or 
Hispanic, and 66 percent reside in Wards, 4, 7, and 8.
    The private and parochial schools participating in the 
program provide for the academic, social-emotional and 
financial needs of OSP students. School leaders have provided 
additional support for students performing below grade level; 
worked to expand Title I services; provided teachers with 
additional professional development; incorporated social-
emotional learning strategies in the classroom; enhanced 
counseling services for both students and parents; and 
coordinated with local community resources to obtain extra 
resources to help address needs beyond the classroom.
    School administrators have also sought alternative funding 
to provide tuition assistance to cover the gap between tuition 
and the OSP scholarship, as well as subsidize the cost of 
additional school fees, materials, field trips, and school 
events so that students can participate fully in their school 
experience.
    Recognizing the impact a successful transition to a new 
school has, school administrators have created programs to 
assist students and their families with acclimating to a new 
school culture. These include, but are not limited to, academic 
summer boot camps, new parent and student orientations, and new 
parent buddies. Required parental engagement, attendance at 
meetings, and volunteering also help new parents and guardians 
become active members of the school community and empowers them 
to become advocates for their children.
    Parental involvement is essential for student success and 
for creating a personal investment in the school. Classroom 
teachers, counselors, support staff and principals work 
collaboratively with parents and guardians throughout the year 
forming partnerships that encourage open communication 
nurturing student success.
    Over the last 15 years, the Opportunity Scholarship Program 
has improved in meeting the needs of the students and their 
families due to the collaborative efforts of the administrators 
of the program and school leaders. When the program first 
started, scholarship award notifications were outside of the 
private/parochial school application window. Even though some 
schools accepted OSP students at the last minute--sometimes 
even when school was even in session--the rush to place 
students did not always yield the best fit.
    Now under the direction of Serving Our Children, the timely 
notification of scholarship awards and school fairs within the 
private and parochial school application cycle allow school 
leaders to properly assess and plan for the needs of incoming 
students and their families. Better initial placements and less 
school transfers provide a more sound and consistent academic 
experience for students. In addition, the ongoing need for 
supplemental academic supports for students below grade level 
has led to the tutoring program established by Serving Our 
Children.
    The current administrator also implemented an absolute 
sibling preference during the awarding process, allowing all 
eligible children in a family to receive scholarships. This 
alleviates the strain on parents or guardians of juggling 
multiple schools or being forced to remain enrolled at their 
current neighborhood school. Having all children at one school 
provides a consistent educational experience for the entire 
family and promotes commitment in and to the school of choice.
    The overall success of the program is evident in the 24,351 
applications received since 2004, the 94 percent parent 
satisfaction rate with their child's academic progress and 
current school, and the 86 percent high school senior 
acceptance rate to 2-or 4-year colleges or universities. The 
reauthorization of the D.C. Opportunity Scholarship Program 
empowers parents to exercise their right to choose the best 
school for their child, no matter their income and allows 
children to have a brighter future.
    Chairman Johnson. Thank you, Ms. Conley.
    Our next witness is Yisehak Abraham. Mr. Abraham attended 
Rock Creek International School and Archbishop Carroll High 
School through the D.C. Opportunity Scholarship Program. Mr. 
Abraham went on to graduate from Columbia University with a 
bachelor's degree in economics and now works as a research 
associate at the American Enterprise Institute in Washington, 
DC, focusing on financial markets. Mr. Abraham.

  TESTIMONY OF YISEHAK ABRAHAM,\1\ ALUMNUS, D.C. OPPORTUNITY 
                      SCHOLARSHIP PROGRAM

    Mr. Abraham. Thank you, Senator. Good afternoon Chairman 
Johnson, Senator Scott, and other guests. Thank you for the 
opportunity to appear before you today to discuss my experience 
with the Opportunity Scholarship Program. It is truly an honor 
to sit before you representing all Opportunity Scholarship 
recipients and to advocate on their behalf.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Abraham appears in the Appendix 
on page 31.
---------------------------------------------------------------------------
    The D.C. OSP was created in 2004 with bipartisan support in 
response to the growing need for access to quality educational 
options for D.C. families. It is the first Federal Government 
initiative to provide scholarships for grades K through 12 for 
low-income children to attend a private school. The program 
began as part of a city-wide effort to improve all of the 
district's educational sectors--public, public charter and non-
public--in an effort to expand quality educational experiences 
for district families.
    It was subsequently reauthorized twice, and thanks to your 
leadership and efforts hopefully will be reauthorized again. 
Why should it be reauthorized? Let us take a look at the impact 
it has had since inception.
    Over 24,351 D.C. children have applied to the OSP since the 
program was created. Over 10,700 students have been awarded an 
OSP scholarship. 1,653 OSP students were enrolled in 
participating schools just last year. Half of OSP students 
received SNAP and/or Temporary Assistance for Needy Families 
(TANF) benefits in the last school year.
    $23,285 was the average annual household income for 
families using the scholarship in 2018. Sixty-six percent of 
OSP students enrolled reside in Ward 4, 7, and 8. More than 98 
percent of OSP students graduate, and 86 percent of those 
students enrolled in a college.
    So who has this program served? It has served me and 
thousands like me, students and families who were looking for a 
choice that was either a better or maybe even the best fit for 
their educational future, a choice that would not be available 
to them were it not for the existence of OSP.
    OSP has had a tremendous, positive impact on my life. From 
kindergarten through the fourth grade I attended a D.C. public 
school. However, by the fourth grade I felt that something was 
not quite right, that the school I attended was not necessarily 
the best fit for me.
    In the fifth grade, I had the privilege of being awarded a 
scholarship to attend a private school through the OSP. My 
family chose to send me to Rock Creek International School 
located in DuPont Circle. The transition to Rock Creek felt 
magical, to say the least. The school had laptops for each 
student to take home, language classes, spectacular teachers 
who cared just as much about how I learned, as opposed to just 
what I learned, and more.
    I wrote my first extended research essay, which was over 10 
pages long, on the ancient Olympic Games. The following summer 
I even went to Greece through the school. I continued with the 
OSP and attended Archbishop Carroll High School, an excellent 
college-preparatory Catholic school in DC. I graduated from 
Carroll in 2012, and from Columbia University in 2016, with a 
bachelor in Economics.
    Currently I am a Research Associate at the American 
Enterprise Institute where I focus primarily on financial 
markets. In the future, I hope to continue to utilize economics 
to analyze policies that will better benefit the public and our 
Nation.
    OSP allowed me and my family a choice, a choice that would 
not have been if the OSP program had not existed. Can someone 
here tell me my choices should have been limited because I came 
from a different part of DC? Should any child be told that 
their choices have to be limited if a program that works and 
can have a tremendous and positive impact on their lives 
exists?
    Senator Johnson, Members of Congress, please reauthorize 
the OSP program and keep this critical program available for 
years to come. Thank you.
    Chairman Johnson. Thank you, Mr. Abraham.
    Our final witness is also our host. Gerald Smith, Jr., is 
the Principal of St. Thomas More Catholic Academy. Before being 
named principal, Mr. Smith taught for 5 years here at St. 
Thomas More and for 2 years at Bishop McNamara High School in 
Forestville, Maryland.
    Mr. Smith received a bachelor's degree in biology from 
Xavier University of Louisiana and a master's degree in 
interdisciplinary health sciences form Drexel University. 
Principal Smith.

TESTIMONY OF FATHER GERALD SMITH,\1\ PRINCIPAL, ST. THOMAS MORE 
                        CATHOLIC SCHOOL

    Mr. Smith. Thank you, Senator Johnson.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Smith appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    American educator and social activist, Geoffrey Canada, 
once asked a simple question--What would it take, in a society 
where a class of people in America are often forgotten and the 
game is fixed against them, what would it take to get them out 
of poverty?
    The answer is simple. Education. But simply placing 
scholars within a classroom is not enough. Providing true and 
sound partnerships between the community, the parents, and 
institutions' educators, and most importantly, the scholars in 
which the school serves, is vital to the success of the 
developing whole individuals, willing and ready to make the 
world more just and humane.
    School choice is an important component in allowing parents 
and their scholars to find places that fit the needs of their 
unique academic profile. More importantly, the chance to choose 
a school rooted in mission and its religious core provides the 
opportunity for developing young men and women who are 
dedicated to growing in virtue.
    Catholic schools like St. Thomas More Catholic Academy and 
others within the Consortium of Catholic Academies, as well as 
many private and charter institutions give rise to increasing 
the chances of transforming every aspect of a young man or 
young woman's life.
    The support of reauthorizing the SOAR Act gives hope to a 
world where brilliant minds are only one component to making 
the world better. The SOAR Act gives the choice to parents to 
find a school that is ready to lead, teach, and inspire, 
through the gospels, reflecting love daily. Academic programs 
supported by the SOAR Act transform men and women with not only 
brilliant minds, but more importantly, men and women with fully 
sanctified hearts guided by virtue.
    [Applause.]
    Chairman Johnson. Thank you, Principal Smith.
    So I have a few questions for the witnesses but then 
after--again, I really want to encourage questions from the 
audience, and comments. I mean, we kind of want to hear your 
stories as well, until we run out of time and get the boot.
    Let me start with you, Ms. Conley. You have been involved 
in this program for quite some time and in education. What 
would you say is the single most important aspect or attribute 
of the Opportunity Scholarship Program?
    Ms. Conley. Wow. There are so many.
    Chairman Johnson. Well, name a few then. I do not want to 
limit you to just one. I like prioritizing things, but----
    Ms. Conley. I think, first and foremost, choice. Every 
one--every parent and guardian has that right and that 
privilege to educate the child which they see fit. And we also 
know not every school is for every child. And so a parent 
should have access, no matter the income, to any school of 
their choice.
    I think the other piece is it is important keeping the 
family together, which I saw at the very beginning of the 
program, where funding was families were coming in together, we 
kept the consistency of their education, and then where we are 
now, moving back and saying absolutely sibling preference, so 
that all children are in one school.
    Chairman Johnson. So let me quick follow up on that aspect 
of your testimony, because, first of all, I was very pleased to 
read the fact that--it almost seemed to me, maybe early on--I 
do not want to use the word ``sabotage,'' but, I mean, the fact 
that the awards were occurring at a time when it was almost 
impossible for the school system to plan, but that has 
improved. Plus we are keeping students together.
    So what happened there? I mean, was there an 
acknowledgement that there was a real problem and there was 
real cooperation to improving the program?
    Ms. Conley. I think the ongoing push was principals working 
directly with the administrators, throughout the different 
years, of saying the importance of the timeliness. And some of 
it came with reauthorization and appropriations, of how do we 
know, up front, that money will be awarded and the program will 
be funded?
    I think in the years that we were on the fence of will this 
be reauthorized, people hesitated, things did not move forward. 
The fact that we know it was reauthorized, we know the money 
was there, and this administrator making it an absolute 
preference and realizing we want students to be in the best 
place initially. We do not want transferring. We do not want 
this scramble. No parent should be scrambling. They should be 
sitting down and having the conversation with the school of 
their choice.
    And also what we see it the better initial fit. Students 
are in where they belong and where they should be. Some people 
may say it is cherry-picking. It is not. It is knowing up front 
what are you coming in with? Where are you? Meeting the student 
and the family where they are and then going forward, not just 
taking off the top. And I think that was the perception in the 
very beginning.
    Chairman Johnson. I think keeping families together is so 
important. I mean, we were always comforted. We hated to see my 
daughter go to North because the rest of the kids were going to 
Lourdes, first of all, just for convenience in terms of 
transportation but also, siblings look after each other. So 
again, that was a really positive result that I am glad is 
happening.
    Mr. Abraham, I want to ask you a what-if. Obviously you are 
an exceptional young man. I think you would have succeeded just 
about in any environment. But, you know, what if? What if you 
did not have that opportunity in the fifth grade? Do you think 
you would have pursued the same career path? I mean, do you 
think you would have been a little bit more limited? I mean, 
just, the what-if question.
    Mr. Abraham. It is hard to speak on what if. I guess, the 
best answer I can give you is I know having through the path 
that I went through, and, having started at the public school 
that I did, I guess I knew what I would have missed out on. I 
would have not been on an accelerated track that would have 
pushed me. I would not have been pushed beyond my bounds in a 
way that made me see that more was possible, both in my 
education and in the capacities that I could gain.
    Chairman Johnson. So you are pretty thoroughly convinced 
that having this opportunity, this choice to go to a school 
that suited your abilities better, you end up--the result was 
better performance and--I mean----
    Mr. Abraham. Yes. Actually, in the original draft of my 
speech I kept saying who are we but the product of all the 
choices we have made from all the options we were given. And, 
to me the fact that I had a scholarship and was able to choose 
any school that I wanted to, it motivated me to take advantage 
of the schools that I ended up going to, because I knew I had 
the choice and I knew exactly what I was going to those schools 
to obtain.
    Chairman Johnson. OK. I mean, again, that is exactly what 
the parents in ``Waiting for Superman'' realized too, is that 
choice opened up doors that if they did not have those doors 
would close and they really thought their futures would be 
limited.
    So I want to ask Principal Smith a question here. If you 
have a question why do not you start lining up in as quiet way 
as possible so we can kind of move this along as efficiently as 
possible.
    But, Principal Smith, I cannot tell you how many times, 
working with Lourdes High School in Oshkosh, the Catholic 
school system there, I used to just be involved and just think 
to myself, this is a really special place. OK? Just a couple of 
hours here now, in St. Thomas More Academy, I get the same 
feeling.
    Can you describe that? Can you say, from your standpoint, 
what makes this system, this school such a special place?
    Mr. Smith. So it is a gamut of things. I think, one, the 
scholars make this place what it is. It is home. It is home for 
many of us. For some of us, we come from broken families. For 
some of us, we come from circumstances that are out of our 
control, and this is a place where we can be consistently and 
honestly ourselves and be loved and educated and get the same 
love that Christ gives us each and every day.
    I had the opportunity to be an educator here, left, learned 
a lot of amazing things and came back, and I get to work with 
some of the best educators within the Consortium, and the best 
principals as well, led by someone really great, with a 
mission, and we are all mission oriented with this ultimate 
goal of making sure that our scholars have what it takes to be 
successful in life.
    Chairman Johnson. So would you call it a pretty nurturing 
environment?
    Mr. Smith. Oh, it is very loving. This is a family. And it 
is very funny because we never leave. We come right back. When 
we graduate from 12th grade we come back. We graduate from 
college, we come back. We had some kids that become educators 
here at the school. So it is an amazing place that just goes 
full circle in developing virtue.
    Chairman Johnson. I am going to ask you a combination of 
the questions I asked Ms. Conley and Mr. Abraham. What aspect 
of this program is the most important? And you see students all 
the time. Kind of the what-if question of those students as 
well.
    Mr. Smith. I think, as Ms. Conley talked about it, it is 
choice. The what-if, I mean, there are endless possibilities of 
what could happen to our scholars if they did not have the 
opportunity to choose a school that fit their academic profile, 
if they could not choose a place that would love them 
unconditionally for who they were, and guide them to become 
wholesome young men and women. This is a place where they get 
the science, they get the math, they get the reading. They get 
all those things that they could get in a public school. But 
here, within, with the SOAR Act and with the OSP scholarship, 
they get their hearts formed. They become saints, and that is 
what our ultimate goal is as human beings. We go to college but 
ultimately we go to heaven.
    [Applause.]
    Chairman Johnson. Well again, thank you for your 
involvement.
    Now I will ask for questions or comments from the audience. 
Anybody? I am a U.S. Senator. I can talk for a long time, but 
you really do not want to listen to me.
    Mr. Campbell. Hello.
    Chairman Johnson. State your name.
    Mr. Campbell. My name is Keron Campbell. I am a senior at 
Archbishop Carroll High School. I do not have a question. I 
have a comment.
    Coming from a public school all throughout K through 8, 
where I was dealing with a lot of kids and the classroom sizes 
were sometimes humongous--like when I first came to Carroll--I 
came to Carroll my 10th grade, so I did not go to Carroll all 4 
years. I came from a very large high school in P.G. County 
which is called Charles Herbert Flowers High School. It had 
2,300 kids. The average class size was 40 kids, and that was 
not me. Sometimes my teachers did not even know my name. That 
is how big the school was.
    And so coming to Carroll and really getting that intimate 
setting with my teachers and getting the opportunity--and I do 
not think I would have gotten the opportunity without OSP, to 
be honest with you. I think I would have been at another public 
school with a large setting of kids and I would have never, 
like, got that attention I really needed at the time.
    And so at Carroll I feel that every day, I would not have 
gotten that if I had not had OSP. That loving setting and a 
Catholic school setting where you can foster kids and be better 
and really grow them as a person. And I think I never would 
have gotten that if it was not for OSP.
    So that is all I have to say. Thank you.
    [Applause.]
    Chairman Johnson. I appreciate that.
    By the way, let me point out a few numbers here. As said 
earlier, the average cost, operational cost of educating 
somebody in the district is $19,000. If you tack in the capital 
costs, the maintenance and building cost, it is about $29,000.
    The cost of the scholarships is somewhere between $8,000 
and I think $12,000. Is it $13,000? So if you really do the 
math on that, $30 million is what the district saves, and they 
are getting $20 million out of the deal, so it is pretty good.
    But the reason I am pointing that out is tuition--and I do 
not know what tuition is here. I know in the Catholic school 
system in Oshkosh it was a lot cheaper than that per-student 
cost, and yet the class size was smaller. So you have to 
scratch your head. What is the public system doing but what a 
good deal these voucher system schools really are. So got to 
make that a counting point.
    Any other questions or comments?
    Ms. Wilson. I have a comment. I want to say thank you, 
because I was at OSP too. When I went to a public school I was 
very down in reading until I got an OSP scholarship, and now my 
reading got actually better. So thank you.
    Chairman Johnson. So what is your name and what school do 
you go to?
    Ms. Wilson. Yenaya, and I attend St. Thomas More.
    Chairman Johnson. And you are in what grade?
    Ms. Wilson. Sixth.
    Chairman Johnson. Well, you are a very articulate little 
sixth-grader, so thank you for those comments.
    Ms. Wilson. Thank you.
    [Applause.]
    Mr. Massey. Good evening, Senator.
    Chairman Johnson. What is your name and your school?
    Mr. Massey. My name is Micah Massey. I am in eighth grade 
and I go to St. Thomas More Catholic Academy.
    I would like to add on to Mr. Smith's speech. From a 
student standpoint about this is a home, he is correct. This is 
a home where you can express yourself in the right way, be your 
true and authentic self. That is what Mr. Smith always tells 
me. This is a loving and caring school. We accept anyone. And 
that is what I would like to say.
    [Applause.]
    Chairman Johnson. Well, thank you.
    So again, why would anybody be opposed? Why would anybody 
deny somebody an opportunity to experience something like this? 
Sir.
    Mr. Carter. How you doing, Senator Johnson. My name is 
Derrick Carter and I have actually two sons that are in the OSP 
program. One attends this school and I have one that is 
graduating from Archbishop Carroll this year.
    First and foremost, I would like to say thank you to Mr. 
Smith, because not only is he the principal of this school but 
he is like a father figure when things are not going right 
here. So me, as a parent, had it not been for this program, I 
do not know what I would have done, because as a parent I 
always want to have a choice of where I can send my kids to get 
their education from.
    So me, as a parent, I am real thankful that this program is 
around. I have advocated for it because I have been on Capitol 
Hill at these congressional meetings, so I am one of those 
parents that you might see on Capitol Hill one day, because I 
do support this program. That is how much passion I have about 
this program.
    So we just want to say, as parents, that we are going to 
work and make sure that we keep this program around, so that--
and these are his words--our scholars can continue to have 
success in life, whatever they decide to do.
    Thank you.
    [Applause.]
    Chairman Johnson. Well, thank you, Mr. Carter. Thanks for 
those comments. And again, thank you for expressing your 
appreciation to the principal, and by extension, everybody who 
works in this very special place. I mean, it is a an act of 
service and sacrifice, so thank you for expressing that.
    Next. Your name and your school.
    Ms. Adams. Hi. My name is Mackenzie Adams and I attend St. 
Thomas More Catholic Academy. And my question today is what do 
you think the world would be like, well, Washington, DC would 
be like without this program?
    Chairman Johnson. Anybody want to answer that?
    Mr. Smith. I think we would have a world where--I think if 
the scholars did not have the opportunity to be partners in 
their education we would have robots. We would have a world 
that feels like this is the one way that we go, these are the 
one things that we do. Here, with this scholarship, you have 
the opportunity for your world to be broadened, for doors to be 
opened, for you to see things that you never could imagine. I 
think this is what this scholarship provides you, insight to 
things that are bigger than Washington, DC, bigger than your 
neighborhood, bigger than your back yard.
    So if you never had that opportunity you would be very 
close-minded, I think. Your eyes would be closed to all of the 
wonders that the world has to offer.
    Chairman Johnson. But let me chime in, and if you are 
thinking of your own response, what made this Nation great is 
the vision of our Founding Fathers to protect the God-given 
rights--and again, God-given rights--of life, liberty, and the 
pursuit of happiness. The reason we are able to pursue 
happiness is because we are free people, and as a result of 
free people we have the opportunity to aspire, to dream, to 
hope. And without an Opportunity Scholarship Program the 
families who are taking advantage of this, they have some of 
that hope, some of that freedom, some of that aspiration taken 
away from them.
    I keep pointing out no government agency would have created 
this. This was created by the mind of a true visionary and 
genius. I mean, you can go through and all products and 
services that create this private sector. Those are done 
through the minds--first of all, the God-given minds--but the 
creativity and the aspirations of individuals. And without 
these types of scholarship programs there would just be 1,645 
students that do not have quite as much hope. They may not 
aspire. They may not go on to graduate, whatever, cum laude, or 
a graduate program, and they may never invent this for the 
benefit of all of us.
    So again, you can never tell, but it is individuals, 
operating with that freedom and hope and ability to aspire and 
create and innovate, that we would lose without programs like 
this.
    Mr. Abraham. I mean, just to add on, I really liked, what 
Senator Scott said while he was up here. When parents have a 
choice, students have a chance. I think both parents and 
students benefit equally. I know that my parents were happy to 
see me just being thrilled to go to the new school that we all 
of a sudden had a choice to be able to go to.
    To say like what a world without OSP looks like is a world 
where maybe parents are sending their kids to a school where 
every day they are like I know it is not necessarily the best 
fit for them but I hope that the best will happen. In the case 
with OSP, you can see in the parents' expressions that they 
know that their child is at the right place.
    Chairman Johnson. Any other questions or comments?
    Ms. MacLeay. Thank you for your time today. My name is 
Ashley MacLeay. I am here with Independent Women's Forum, and I 
am the at-large representative to the D.C. State Board of 
Education.
    Thank you for your comments, and we have heard lots of 
benefits today from Senator Scott as well as yourself. Do you 
have any comments or response to those naysayers, those in 
Congress or the D.C. Council or the Washington Teachers Union 
(WTU), who may not support this program under the guise of 
accountability?
    Chairman Johnson. Principal Smith, I have a response as 
well, but go ahead.
    Mr. Smith. You can go first.
    Chairman Johnson. With freedom comes responsibility, and so 
it is really the responsibility of each parent to make the 
evaluation. Is this a school that is going to suit my 
children's needs? I mean, is it accredited? Is the principal a 
loving, caring human being? Are the teachers? Are the 
administrator?
    So you can either put your faith in government to make that 
choice for you--again, one of the questions I ask crowds all 
the time is, show of hands--how many people think the Federal 
Government is efficient and effective? Nobody raises their 
hand. They just laugh, OK. How many think it is pretty broken 
and dysfunctional? OK. So let us not have the Federal 
Government make that choice, or even the local district 
government. Why not let parents make that choice. I think they 
care about their children more than anybody else does. So I am 
happy to put that decision factor, that evaluation of is this 
an accredited school to my standards, I would rather give that 
choice to the parent than I would to any form of government, 
quite honestly.
    Principal Smith, do you want to chime in on that as well?
    Mr. Smith. I am a product of public schools. My educators 
were great. They were fantastic. They pushed me beyond measure. 
But I do not remember my parents being as involved. They could 
not be. There were things that we did within the public school 
sector, as public science students that my parents were not 
truly invested.
    The parents that I see coming here every single day have a 
say. They come in and they fight for the education that each 
one of their scholars deserves. I think that a naysayer that 
says that this program is not needed is disregarding every 
parent and the role that they play in the education as a first 
teacher, as a first educator for the scholars that we teach. I 
think that we have to give the opportunity for our parents to 
make that choice to be the number one educator, to give them 
what they need. Because when they graduate from St. Thomas More 
and they graduate from any of these Catholic schools or any of 
these private schools that the SOAR Act supports, their parents 
will always be their educator, and we need them to be a part of 
it.
    Ms. MacLeay. Thank you very much.
    Chairman Johnson. Thank you.
    Ms. Harris. All right. My name is Dia Harris and I am from 
Archbishop Carroll High School. My question is, if somebody did 
not know what the OSP program, like how would you explain that 
to them?
    Chairman Johnson. Yisehak, you actually participated. Why 
do not you answer the question?
    Mr. Abraham. Sure. Go Carroll. Go Lions.
    So your question is how would I describe what OSP is to 
somebody who has never heard of it. It is like a Golden Ticket, 
if I had to exaggerate.
    Again, if you are going to a school where you know, it is 
not the right fit for you, and, the only reason why you cannot 
go to another school is because of circumstance, because of the 
area of the city you live in, or, how much money your parents 
have it is almost a huge equalizer. It grants people 
opportunities and, gives you a fair shot at success.
    Ms. Harris. Thank you.
    Chairman Johnson. You mentioned the word opportunity. We 
are all created equal. We do try and guarantee equal 
opportunity. You cannot guarantee equal outcomes but equal 
opportunity. So I like that answer. It is the Golden Ticket, is 
opportunity that helps ensure that.
    Get up on your tippy-toes.
    Mr. Bonds. I am Calique Bonds and I am in the sixth grade 
at St. Thomas More Catholic Academy, and this is for Principal 
Gerald Smith. I want to say thank you for leading us St. Thomas 
More scholars. And I want to ask a question. What led you to 
your career right now?
    Mr. Smith. I am getting grilled today.
    It is a very funny story. I was brought here by God, and as 
cliche as that may sound. I graduated from Drexel University 
College of Medicine. I came here and taught at a summer program 
and was only going to teach for the summer. I was given the 
opportunity to teach, fell in love with teaching, and was 
inspired by the minds of each and every one of the scholars 
that sit here and those that are going on my first. The second 
class that I ever taught is graduating this year. And I 
remember the conversations that we had of the success that lied 
right beyond these doors, for each and every one of them. I get 
to see them. Hopefully I will get invitations to see them walk 
across the graduation stage and become a part of society, to 
change it, to make it more just, to make it more humane.
    So what has led me here? God led me here. I did not listen 
a lot, but when I started to listen, here we are. I have the 
opportunity to now be a face and an advocate for a scholarship 
that is going to give you guys the opportunity to change your 
lives to.
    Chairman Johnson. So Mr. Smith, real quick in preparation 
for this hearing I read a piece that Principal Smith wrote, and 
I was struck by the humility of one of the opening lines in 
there, when you talked about you were--I do not know the exact 
word but scared when you got this opportunity. Just talk a 
little bit about the--kind of the enormity of the 
responsibility when you first were given the opportunity to 
become principal of this school, what your reaction was to it.
    Mr. Smith. So I called my teachers educators because 
Senator Scott talked about it. We are life-long learners and 
educators are life-long learners. And I love to educate. I am 
at my best self when I am in the classroom, on a board, 
educating my scholars.
    And I got the call from Father Moore to say, ``We want to 
make you principal.'' And it sounds great in the first moment, 
but then I hung up and I was like, oh, principal. So it was 
scary in the sense of what does that look like? How do you 
become the head educator? How do you become the head role 
model? How do you become the model of Jesus Christ in 
everything that you do? And that was the challenge.
    And so for me it was only scary at the beginning because 
after that it became a lot of prayer, a lot of discernment, a 
lot of opportunities to have conversations with Christ, to 
really focus on what the ultimate goal of Catholic education 
was. What is the ultimate goal for scholars that have chosen to 
be here, that could go anywhere for free, but will work beyond 
measure through this scholarship, through the opportunity, to 
become great?
    So I had to get rid of the fear and become very humble and 
understand my role as a leader within this part.
    Chairman Johnson. I hope you do not mind me asking that 
question but I think it is very important for your scholars 
that are sitting here to understand that the head guy, your 
principal, experienced that level of fear with a new challenge. 
That is not unusual. That is going to happen throughout your 
life. Life is not easy, and I think being led by someone with 
that kind of humility--and, quite honestly, that level of fear, 
understanding that the gravity of the responsibility he is 
taking on being your principal is, I think, pretty interesting, 
if nothing else. But again, thank you for your service.
    Mr. Smith. Thank you.
    Chairman Johnson. Any other questions or comments? Ma'am, 
do you have a question or comment or are you leaving? OK.
    Mr. Smith. No, she is coming up.
    Chairman Johnson. Are you coming up? OK, good. I was not 
sure.
    Ms. Stewart. Good afternoon, everyone. I am an old parent 
to OSP. When I first heard about OSP my son was graduating from 
elementary school, and I had gone through the process only to 
be hurt because the program had went away. Congress had took 
the money away. And so I was left scrambling, trying to find a 
junior high school as well as a high school for my son.
    Needless to say, I did well. He is 23 years old, living in 
California. He is a Marine. But his senior year I received a 
letter saying that the money had come back and the OSP program 
had started up again. And now I have this 3-year-old daughter 
who could partake in the scholarship. And so once again I went 
through the process, and Katlynn was granted the OSP 
scholarship money. And so now I was left with trying to find a 
school, which St. Thomas More was our selection.
    And since then she has blossomed. Katlynn has advanced from 
second grade to fourth grade. She loves her school. She loves 
her principal. She loves her teachers. I love the staff. It 
just works for us. So thank you to the program and certainly 
thank you to St. Thomas More family.
    Chairman Johnson. Thank you for your comment.
    [Applause.]
    That comment does remind me. There was somebody in the 
audience that was going to ask a question. Can I prompt that 
person? Maybe she has already left. Because I would rather not 
make the point myself.
    Well, she must have gone.
    The point that was raised was why only reauthorize this for 
just 5 years. Why not do it permanently? I would love to do 
that. I have already asked my staff have we already drafted the 
bill? I mean, we have, with a 5-year authorization. But when 
you see the strong bipartisan support, when you see the support 
from the D.C. City Council, this may be an opportunity.
    I would encourage all of you, so that we do not have that 
issue of funding potentially going away. Opposition may be 
raising its ugly head again. There is no reason, from my 
standpoint, not to reauthorize this thing permanently, and I 
would love to do that, but we are going to need your help and 
we are going to need your voices to make that advocacy.
    Oh, they just called votes which means I have to leave.
    But again, I want to thank everybody--our host, our 
witnesses, the audience participants, again, the school 
administrators, Father Moore, Mr. Smith, all of you that are 
involved in this very special place. Thank you very much. God 
bless you.
    And with that the hearing is adjourned.
    [Applause.]
    [Whereupon, at 4:56 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
